No 20 -100
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL S. BARTH,
PETITIONER,
V.
BERNARDS TOWNSHIP PLANNING
BOARD, ETAL.,
RESPONDENTS.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW JERSEY SUPREME COURT
PETITION FOR REHEARING
MICHAEL S. BARTH
P.O.BOX 832
FAR HILLS, NEW JERSEY 07931
(917) 628-6145
PETITIONER PROSE

1

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44, Petitioner
respectfully petitions the United States Supreme
Court to rehear its March 2, 2020 Order denying a
Petition for a Writ of Certiorari in Michael S. Barth
v. Township of Bernards. New Jersey et. al.. No. 19806.
GROUNDS FOR REHEAING
On October 13, 2020, this Court denied certiorari in
Barth v. Bernards Township Planning Board. No. 20100. In that Order the Court wrote, “Justice Alito
took no part in the consideration or decision of this
petition.”
While during thy Amy Coney Barrett hearings, the
public learned a lot of additional information on how
the Supreme Court works (a lot of it appearing
seemingly an attempt at a secretive process to only
those in some “inner circles”); the Los Angeles Times
once wrote that such a statement by the Court is the
equivalent of a Supreme Court Justice recusal. (LA
Times reference omitted.)
As stated in Page 2 of the petition in Barth v.
Bernards Township Planning Board. No. 20-100, the
New Jersey Supreme Court considered the Planning
Board case (20-100) and Michael S. Barth v.
Bernards Township, et al. No. 19-806 so much
linked, (whether intrinsically or otherwise); that the
New Jersey Supreme Court Chief Justice Stuart
Rabner recused himself from both cases below. Id.

2

Even without Justice Alito stating his reasons for his
apparent recusal, it would appear unequivocally that
Justice Alito should have clearly recused himself in
both No. 19-806, and No. 20-100, and not just the
latter case No. 20-100.
This Court and nearly every other Court has stated
that when a Justice should be recused - and does not
recuse - that Justice taints the rest of the panel.
(Multiple references omitted.)
By Justice Alito not recusing himself in No. 19-806,
but rather a later case No. 20-100, the tainting
basically has the effect so that the denial in No. 19806 is the equivalent of a decision on the merits in
No. 19-806, and also resulting in the bad precedent
for No. 20-100.
Moreover, whether only 7 Justices in 20-100 when
four are needed to grant certiorari, or a “taintedpanel” in 19-806; the unique nature of a new
Supreme Court Justice Barrett, during the allotted
time to file a petition for rehearing, further supports
a petition for rehearing.

3

CONCLUSION
For the reasons set forth above, as well as those
contained in the petition for writ of certiorari,
petitioner respectfully requests that this Court grant
petitioner’s request for rehearing and vacate the
order denying writ of certiorari.
Respectfully submitted,
Michael S. Barth, Petitioner Pro Se
P.O. Box 832
Far Hills, New Jersey 07931
917-628-6145
October 29, 2020
CERTIFICATION OF COUNSEL
The undersigned certifies that this petition for
rehearing is presented in good faith and not for
delay, and that it is restricted to the grounds
specified in Supreme Court Rule 44.2.
The undersigned further certifies that the grounds of
this petition are limited to intervening circumstances
of substantial or controlling effect or to other
substantial grounds not previously presented.
Michael S. Barth

